                                                               NATIONAL SCIENCE FOUNDATION
                                                                OFFICE OF INSPECTOR GENERAL
                                                                  OFFICE OF INVESTIGATIONS

                                                         CLOSEOUT MEMORANDUM

            Case Number: A09110085                                                                        Page 1 of 1



                      We received concerns 1 about the decision by the PI2 of an NSF award3 to move some award
                      actIvities from an institution named in the proposal to another institution. 4 OIG learned that the
                      NSF program was aware ofthe circumstances leading to the PI's decision. The program had
                      infonned personnel at the institution named in the award that itwas aware ofthose
                      circumstances and that NSF provided PIs with great authority to manage their awards. The
                      program concluded that the decision to move the selected award activities fell within that
                      authority. OIG detennined that the issues raised by the subject were programmatic in nature, and
                      they had been appropriately addressed.

                      This file is closed.




------   .- - - - - - - - - - -   ---­
